<html>
<title> - [H.A.S.C. No. 115-94] Reviewing Department of Defense Strategy, Policy, and Programs for Countering Weapons of Mass Destruction for Fiscal Year 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
                         [H.A.S.C. No. 115-94]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2019

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                    REVIEWING DEPARTMENT OF DEFENSE

                     STRATEGY, POLICY, AND PROGRAMS

                     FOR COUNTERING WEAPONS OF MASS

                    DESTRUCTION FOR FISCAL YEAR 2019

                               __________

                              HEARING HELD
                             MARCH 22, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                   U.S. GOVERNMENT PUBLISHING OFFICE                    
30-564                    WASHINGTON : 2019                     
          

                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                ELISE M. STEFANIK, New York, Chairwoman

BILL SHUSTER, Pennsylvania           JAMES R. LANGEVIN, Rhode Island
BRAD R. WENSTRUP, Ohio               RICK LARSEN, Washington
RALPH LEE ABRAHAM, Louisiana         JIM COOPER, Tennessee
LIZ CHENEY, Wyoming, Vice Chair      JACKIE SPEIER, California
JOE WILSON, South Carolina           MARC A. VEASEY, Texas
FRANK A. LoBIONDO, New Jersey        TULSI GABBARD, Hawaii
DOUG LAMBORN, Colorado               BETO O'ROURKE, Texas
AUSTIN SCOTT, Georgia                STEPHANIE N. MURPHY, Florida
JODY B. HICE, Georgia
                 Mark Pepple, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Stefanik, Hon. Elise M., a Representative from New York, 
  Chairwoman, Subcommittee on Emerging Threats and Capabilities..     1

                               WITNESSES

Osterman, LtGen Joseph L., USMC, Deputy Commander, U.S. Special 
  Operations Command.............................................     8
Oxford, Vayl, Director, Defense Threat Reduction Agency..........     7
Rapuano, Kenneth P., Assistant Secretary of Defense for Homeland 
  Defense and Global Security, Office of the Under Secretary of 
  Defense for Policy.............................................     3
Roberts, Hon. Guy B., Assistant Secretary of Defense for Nuclear, 
  Chemical, and Biological Defense Programs, Office of the Under 
  Secretary of Defense for Acquisition and Sustainment...........     5

                                APPENDIX

Prepared Statements:

    Osterman, LtGen Joseph L.....................................    66
    Oxford, Vayl.................................................    51
    Rapuano, Kenneth P...........................................    27
    Roberts, Hon. Guy B..........................................    42
    Stefanik, Hon. Elise M.......................................    25

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Stefanik.................................................    77
    
.    
  REVIEWING DEPARTMENT OF DEFENSE STRATEGY, POLICY, AND PROGRAMS FOR 
      COUNTERING WEAPONS OF MASS DESTRUCTION FOR FISCAL YEAR 2019

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                          Washington, DC, Thursday, March 22, 2018.
    The subcommittee met, pursuant to call, at 11:18 a.m., in 
room 2212, Rayburn House Office Building, Hon. Elise M. 
Stefanik (chairwoman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ELISE M. STEFANIK, A REPRESENTATIVE 
FROM NEW YORK, CHAIRWOMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Ms. Stefanik. The subcommittee will come to order. Thank 
you for your patience.
    Welcome, everyone, to today's hearing on the Department of 
Defense's [DOD's] policy and programs for countering weapons of 
mass destruction [CWMD] for fiscal year [FY] 2019.
    Almost 1 year ago, we met to discuss this same topic amidst 
news of Syria's repeated use of chemical agents and North 
Korea's advancements in nuclear weapons as well as their 
asymmetric use of nerve agent for political assassination.
    In the year between, reports have surfaced of North Korea's 
biological weapons program and their regular transfer of 
chemical weapons technology to Syria. We have also seen 
Russia's attempted use of a military-grade nerve agent in 
support of their ongoing political assassination campaigns. 
Needless to say, a lot has happened in just a year.
    The pursuit and potential use of weapons of mass 
destruction remains a high-consequence threat to our national 
security. Thankfully, we have not seen any use domestically, 
but we must not take this for granted.
    As the past few years have shown, the use of WMD [weapons 
of mass destruction] is unfortunately becoming more and more 
commonplace. Low barriers and, in some cases, no barriers to 
entry should force us to continually review and evaluate our 
programs, policies, and activities designed to counter and 
mitigate these threats across the WMD spectrum, from state and 
nonstate actors alike.
    From an adversarial standpoint, I am particularly concerned 
about advancements being made in the areas of synthetic biology 
[syn bio] and biotechnology. China and Russia continue to 
pursue gene editing and unique approaches to biotechnology that 
should give us all tremendous pause.
    With respect to nonstate threats, some analysts say that 
the potential for a single undetected terrorist group to 
develop and deploy first-seen engineered pathogens has never 
been higher. And as the subcommittee has discussed before, 
synthetic biology and gene editing, when combined with high-
performance computing and access to large-scale genetic data 
sets, has the potential to redefine biological threats as we 
know them today.
    With all of this in mind, we can understand the importance 
of today's hearing.
    We have before us four distinguished witnesses: from my 
left, Mr. Ken Rapuano, Assistant Secretary of Defense for 
Homeland Defense and Global Security; Mr. Guy Roberts, 
Assistant Secretary of Defense [ASD] for Nuclear, Chemical, and 
Biological Defense Programs; Mr. Vayl Oxford, Director of the 
Defense Threat Reduction Agency [DTRA]; and Lieutenant General 
Joseph Osterman, Deputy Commander of U.S. Special Operations 
Command [SOCOM].
    I would now like to take a moment to recognize Ranking 
Member Jim Langevin for his opening remarks.
    [The prepared statement of Ms. Stefanik can be found in the 
Appendix on page 25.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Thank you, Chairwoman Stefanik.
    And thanks to our witnesses for being here today to provide 
testimony on the Department of Defense's strategy, policy, 
programs, and preparedness for countering weapons of mass 
destruction and the fiscal year 2019 CWMD budget request.
    In 2014, the Department released its strategy for CWMD, 
which outlined three end states: that no new actors possess 
WMD; that there be no WMD use; and that, should WMD be used, 
that there be a minimization of their effects, with associated 
objectives and lines of effort.
    The strategy notes that fiscal constraints require that DOD 
makes strategic choices and accept some risk. However, 
increasingly bold rogue actors and technological advances are 
challenging the strategy's goal of ensuring that the U.S. and 
its allies and partners are not attacked or coerced by 
adversaries possessing WMD.
    For example, earlier this month, we witnessed a peacetime 
chemical weapons attack in the United Kingdom [U.K.] in an 
assassination attempt on one of Russia's former military 
intelligence officers. This attack on one of our closest 
allies, perpetrated by Vladimir Putin, demands a strong and 
unequivocal response, which is why I introduced bipartisan 
House Resolution 786 last week in condemnation of this attack 
in support of our allies.
    In Syria, pro-regime forces and ISIL [Islamic State of Iraq 
and the Levant] consider the use of chemical weapons on 
civilian populations as advantageous to achieving tactical and 
strategic objectives.
    Technological advancements, especially in biotech, as 
Chairwoman Stefanik has referred to, may allow individuals with 
nefarious intent, or simply by chance, to produce biological 
agents in a scope and scale not yet encountered.
    Since the strategy was released, the Department has taken 
some initial steps to strengthen CWMD efforts. In 2017, Special 
Operations Command was designated as the coordinating authority 
for CWMD. Today, we will hear from Lieutenant General Osterman, 
the Deputy Commander of SOCOM, about how the command is 
leveraging best practices from its traditional missions and 
from lessons learned in its role as CA [coordinating authority] 
for countering violent extremism, to reinvigorating CWMD 
awareness, planning capacity and capability across the DOD and 
the interagency.
    The witnesses also include Assistant Secretary of Defense 
Ken Rapuano and ASD Guy Roberts as well as Director Vayl Oxford 
from the Defense Threat Reduction Agency. Together, these 
individuals hold positions that comprise the bulk of assigned 
roles and responsibilities associated with aligning CWMD 
policy, strategy, and programs, executing CWMD programs, and 
delivering current and future personal protective equipment and 
other CWMD capabilities to our warfighters.
    Since the last hearing on this topic, the Department has 
reorganized. The split of the Under Secretary for Acquisition, 
Technology and Logistics [AT&L] into two entities serves as 
both an opportunity and also a potential area of risk to the 
CWMD effort. There must continue to be coordination within all 
elements of the Office of Secretary of Defense on this front, 
including with the Under Secretary of Defense for Research and 
Engineering. There must also be continued focus on and 
prioritization of CWMD by all those with assigned roles and 
responsibilities.
    In closing, there is much work to be done to strengthen the 
CWMD policy, programs, and preparedness. This includes 
understanding the 2014 strategy in the context of today's 
threat landscape, the budget request alignment to the current 
strategy, and understanding how DOD strategy and end states are 
consistent with the national-level strategy and whole-of-
government effort.
    With that, I want to thank our witnesses again for 
appearing before us today. I look forward to your testimony.
    And, with that, I yield back.
    Ms. Stefanik. Thank you, Jim.
    And just a reminder to our members today and witnesses: 
Immediately following this open hearing, we will move next door 
to a closed, classified roundtable.
    Thank you again to our witnesses for being here.
    And, Assistant Secretary Rapuano, we will start with you 
for your opening remarks.

STATEMENT OF KENNETH P. RAPUANO, ASSISTANT SECRETARY OF DEFENSE 
 FOR HOMELAND DEFENSE AND GLOBAL SECURITY, OFFICE OF THE UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Secretary Rapuano. Thank you, Chairwoman Stefanik, Ranking 
Member Langevin, and members of the subcommittee.
    I am pleased to be here today to testify with three of my 
esteemed colleagues about the Department of Defense's effort to 
counter weapons of mass destruction: the Honorable Guy Roberts, 
Assistant Secretary of Defense for Nuclear, Chemical, and 
Biological Defense Programs; Lieutenant General Jody Osterman, 
Deputy Commander of U.S. Special Operations Command; and Mr. 
Vayl Oxford, the Director of the Defense Threat Reduction 
Agency.
    The four of us, the Joint Staff, the combatant commands 
[COCOMs], and other DOD components work closely together to 
ensure the Department prioritizes its efforts and fully 
leverages DOD's unique authorities, resources, and capabilities 
to protect the Nation.
    As Assistant Secretary of Defense for Homeland Defense and 
Global Security, I am the Secretary's primary adviser on CWMD 
strategy and policies.
    The United States faces a range of complex and 
multidimensional WMD challenges. Chief among these are: North 
Korea's dangerous and provocative testing of nuclear weapons 
and ballistic missiles; the continued use of chemical weapons 
by the Syrian regime and ISIS [Islamic State of Iraq and 
Syria]; China's expansion of its strategic nuclear force; 
Russia's recent provocative statements regarding nuclear strike 
capabilities and their likely responsibility for the attempted 
assassination of a former Russian spy in Britain using a highly 
lethal nerve agent; and technological advances lowering 
barriers to entry for a range of adversaries around the world.
    We maintain unique capabilities to address these and other 
WMD threats and achieve the National Defense Strategy objective 
to dissuade, prevent, and deter our adversaries from acquiring, 
proliferating, or using weapons of mass destruction. We enable 
a more lethal and resilient force by degrading WMD threats, 
modernizing key CWMD capabilities, and ensuring the 
Department's policies and plans comprehensively account for WMD 
threats.
    DOD's strategic approach to the countering WMD mission 
focuses on three lines of effort: preventing acquisition; 
containing and reducing threats; and, when necessary, 
responding to crises.
    DOD seeks to prevent acquisition of WMD through the 
Department's Cooperative Threat Reduction program, or CTR, by 
working in over 30 countries to build capacity to detect, 
secure, or eliminate WMD and pathogens of security concern.
    In addition, to prevent the transfer of WMD or dual-use 
materials, the Department works closely with interagency 
partners to build partner capacity and to spread an 
understanding of international norms and obligations through 
the Proliferation Security Initiative.
    To contain and reduce threats already developed, the 
Department maintains specialized plans and capabilities to 
isolate, identify, neutralize, and dispose of WMD threats 
before they can reach our borders.
    DOD also continues to support State Department-led efforts 
to work with international allies and partners to hold the 
Assad regime accountable for using chemical weapons, and will 
continue to ensure the President has all the options available 
to respond as necessary. The U.S. and our coalition partners 
continue to exploit opportunities on the ground to better 
understand and disrupt ISIS CW [chemical warfare] networks.
    Ultimately, should deterrence or efforts to contain and 
reduce threats fail and an adversary attacks us, the Department 
of Defense's top military priority is to respond and prevent 
future attacks. DOD safeguards the force and ensures personnel 
can sustain effective operations in contaminated environments 
to guarantee DOD's warfighting capabilities.
    Using the unique section 333 authority granted last year, 
DOD improves partnerships and alliances by training and 
equipping partner nations to conduct CWMD operations.
    DOD also has a wide range of domestic CBRN [chemical, 
biological, radiological, and nuclear] response elements and 
continuously trains and exercises to employ these capabilities, 
which can be used to support civil authorities to help save and 
sustain lives in the aftermath of a domestic CBRN incident.
    The complexity of this mission area requires a whole-of-
government approach and strong unity of effort. In alignment 
with the Secretary's prioritization of defense reform, we 
cooperate closely with other U.S. departments and agencies and 
our allies and partners. We rigorously prioritize the 
application of our roles, responsibilities, and capabilities to 
focus on countering the most operationally significant WMD 
risks to achieve the most security impact for the Nation. And 
we are bringing together DOD CWMD stakeholders to ensure a 
common prioritization of threats and objectives.
    As WMD-related challenges continue to emerge, your 
continued support for the Department and the efforts described 
today are critical to our ability to understand, anticipate, 
and mitigate these threats.
    Ms. Stefanik. Thank you. We will have to take the rest for 
the record. The time has expired.
    Secretary Rapuano. Thank you.
    [The prepared statement of Secretary Rapuano can be found 
in the Appendix on page 27.]
    Ms. Stefanik. Assistant Secretary Roberts, you are 
recognized for 5 minutes.

   STATEMENT OF HON. GUY B. ROBERTS, ASSISTANT SECRETARY OF 
DEFENSE FOR NUCLEAR, CHEMICAL, AND BIOLOGICAL DEFENSE PROGRAMS, 
 OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR ACQUISITION AND 
                          SUSTAINMENT

    Secretary Roberts. Thank you, Chairwoman Stefanik, Ranking 
Member Langevin, and distinguished members of the subcommittee. 
I certainly appreciate this opportunity to testify on the 
Department's efforts to counter threats posed by weapons of 
mass destruction.
    In the interest of time, I have provided a written 
statement for the record. I simply aim to highlight for you 
here a few key aspects about the organization I am charged to 
lead, the enduring and emerging weapons of mass destruction 
challenges our forces face, and what the Department is doing to 
address them.
    As the Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs, I am responsible for 
advising the Secretary of Defense on nuclear weapons, nuclear 
energy, and chemical and biological defense matters. Further, 
on behalf of the Under Secretary of Defense for Acquisition and 
Sustainment, our office also oversees the modernization of our 
nuclear forces and the development of the Department's 
capabilities to counter weapons of mass destruction threats.
    NCB [Nuclear, Chemical, and Biological] is comprised of a 
workforce that includes the Offices of Nuclear Matters, 
Chemical and Biological Defense Programs, and Threat Reduction 
and Arms Control, as well as the Defense Threat Reduction 
Agency. Together, we ensure that our nuclear deterrent is safe, 
secure, and effective; we take proactive steps to reduce and 
eliminate known WMD threats; and we develop capabilities to 
protect the lethality of our forces against a myriad of WMD 
threats they may face should deterrence fail.
    State efforts to modernize, develop, or acquire WMD and 
their delivery systems constitute a major threat to the 
security of the United States, our deployed troops, and allies.
    In recent years, both state and nonstate actors have used 
chemical weapons against civilians, such as in Iraq and Syria 
by ISIS and the Assad regime. Further, Russia's recently 
reported use of a military-grade nerve agent in the U.K. 
constitutes the first offensive use of a nerve agent in Europe 
since World War II.
    Biological and chemical materials and technologies, almost 
always dual-use, move easily in the globalized economy, as do 
personnel with the scientific expertise to design and use them 
both for legitimate and illegitimate purposes. We are just 
beginning to grasp the implications of the accelerating 
diffusion of these technologies and materials.
    Perhaps most significantly, however, China and Russia are 
accelerating the modernization and expansion of their nuclear 
forces, among other things, in an effort to reduce the 
influence of the United States; gain veto authority over other 
nations' economic, diplomatic, and security decisions; and, 
ultimately, shape a world consistent with their authoritarian 
model to gain advantage.
    NCB's top objective, in alignment with the National Defense 
Strategy, is to dissuade, prevent, or deter state adversaries 
and violent extremist organizations [VEOs] from acquiring, 
proliferating, or using WMD.
    Our nuclear forces make essential contributions to the 
deterrence of nuclear and non-nuclear aggression as well as 
nonproliferation. Our nuclear forces not only deter a nuclear 
attack of any scale, but, by extending nuclear guarantees to 
our allies, we lessen their incentive to develop nuclear 
weapons on their own, thereby supporting U.S. nonproliferation 
goals.
    WMD threat reduction programs, executed by DTRA, continue 
to reduce the threat of WMD around the world by detecting and 
preventing WMD proliferation and consolidating, securing, and 
eliminating dangerous pathogens and materials of concern.
    To counter current and emerging threats like those enabled 
by synthetic biology and nontraditional agents, the Chemical 
and Biological Defense Program is developing protective 
equipment and detection systems for our warfighters as well as 
developing new strategies to anticipate, prepare, and more 
rapidly respond to chemical, biological, radiological, and 
nuclear threats, especially in the area of medical 
countermeasures.
    Consistent with U.S. commitments under the CWC [Chemical 
Weapons Convention], we are diligently continuing our work to 
safely eliminate the remaining U.S. chemical weapons stockpile, 
located in Colorado and Kentucky. This investment highlights 
the U.S. commitment to and importance of strengthening 
international norms against proliferation and use of chemical 
weapons.
    WMD threats continue to pose a clear and present danger to 
our way of life. Our adversaries pursue them because they 
believe doing so will give them significant leverage. Our job 
is to reduce and eliminate any advantage they may seek to gain 
by either making their threats impotent or convincing them of 
our ability and will to impose costs that will outweigh any 
benefit they may gain by using WMD.
    Given that our prosperity and global stability are at 
stake, the importance of modernizing our nuclear deterrent 
cannot be overstated, nor the value of our investments in 
developing protective equipment and medical countermeasures for 
our forces, who are the lethal backstop in our diplomacy.
    Your leadership and oversight on these issues, as well as 
the authorities and resources you provide us to perform these 
responsibilities on behalf of our Nation, are vital to our 
collective success.
    So thank you again for this opportunity to testify, and I 
certainly look forward to your questions.
    [The prepared statement of Secretary Roberts can be found 
in the Appendix on page 42.]
    Ms. Stefanik. Thank you.
    Mr. Oxford.

 STATEMENT OF VAYL OXFORD, DIRECTOR, DEFENSE THREAT REDUCTION 
                             AGENCY

    Mr. Oxford. Good morning, Chairwoman Stefanik, Ranking 
Member Langevin, members of the committee. It is an honor to 
appear before you today to address DTRA's progress and 
direction. It is also a privilege to appear with my colleagues 
here at the table.
    Moreover, I am proud to represent the 2,200 Federal 
civilian and military members of the agency who we count on 
every day to counter the threats we will be talking about 
today.
    Our Nation is faced with the most complex global threat 
environment we have ever faced in our history. And our mission 
within DTRA, to combat weapons of mass destruction, improvised 
threats, and to ensure a safe and effective nuclear deterrent, 
is at the nexus of our country's response to this threat as 
outlined in the National Security Strategy, the National 
Defense Strategy, and the Nuclear Posture Review.
    As an agency, we must adapt to be more agile to meet our 
mission obligations within the context of this threat 
environment.
    On this day 10 months ago, I was sworn in as the director 
of the agency and immediately set four priorities: restore our 
focus on combat support; strengthen and expand our interagency 
and international partnerships; and develop capabilities to 
address gaps in our Nation's ability to prevent proliferation, 
deter its use, and defeat WMD threats, if necessary. Finally, 
it was most important that I empower our agency leadership and 
staff to meet their obligations within these mission 
responsibilities.
    After taking office, I met with Secretary Mattis, and he 
reemphasized the need for us to restore our focus on combat 
support. My first priority in this regard was to establish a 
strong relationship with U.S. Special Operations Command in 
both their coordinating authority role and as a combat support 
agency responsible for confronting these threats directly.
    I think this offers us two immediate opportunities. First, 
we collectively can accelerate the progress against this threat 
across DOD with our interagency partners and the international 
communities. And we are not bound by geographical distinctions, 
so we can actually look across the seams and gaps with the 
other combatant commanders to actually address those gaps 
accordingly.
    DTRA has made great strides in shifting its focus to ensure 
alignment with strategic direction. And, to this time, we have 
solicited and received operational needs from many of our 
combatant commanders; we have established operationally 
specific theater support teams to accelerate progress to 
counter Russia, Iran, and North Korean threats; and we have 
extended our outreach to interagency and international 
communities to go after these adversarial networks.
    In summary, we have accomplished a lot, but much remains to 
be done. I look forward to keeping Congress informed of our 
progress, and I am happy to answer any questions you may have. 
Thank you.
    [The prepared statement of Mr. Oxford can be found in the 
Appendix on page 51.]
    Ms. Stefanik. Thank you.
    Lieutenant General Osterman.

STATEMENT OF LTGEN JOSEPH L. OSTERMAN, USMC, DEPUTY COMMANDER, 
                U.S. SPECIAL OPERATIONS COMMAND

    General Osterman. Good morning. Chairwoman Stefanik, 
Ranking Member Langevin, and members of the subcommittee, 
thanks for the opportunity to address you today.
    It is an honor to be here today with ASD Rapuano, whose 
office is critical in providing the policy and strategic 
direction that guides the Department's countering weapons of 
mass destruction efforts; as well as ASD Roberts, whose office 
is critical to development within our counter-WMD efforts; and, 
obviously, to Mr. Oxford as well, our close partner from the 
Defense Threat Reduction Agency, with whom our efforts are 
embedded and with whom we work on a daily basis.
    Two months ago, General Thomas testified to the House Armed 
Services Committee's Emerging Threats and Capabilities 
Subcommittee. During that address, he discussed the U.S. 
Special Operations Command's responsibilities in our new role 
as DOD's coordinating authority for countering weapons of mass 
destruction.
    I am proud to say that we have made tremendous strides in 
enhancing the counter-WMD community of action. We have 
heightened the operational coordination within and between 
entities and developed a center dedicated to coordinating 
information flow and executing planning efforts, thus 
furthering our initial goals.
    The role of coordinating authority broadens SOCOM's scope 
of responsibility from traditional soft specific roles to a 
more strategic view of overall planning of DOD counter-WMD 
efforts in support of other combatant commands, Department 
priorities, and, as directed, other U.S. Government agencies. 
We are proud to be part of that mission set.
    In the time since transfer of the counter-WMD coordinating 
authority responsibility from U.S. Strategic Command, we have 
focused on developing a campaign plan, in coordination with the 
geographic combatant commands, that emphasizes active 
prevention of new WMD development and preclusion of aspiring 
actors from obtaining WMD. We have also conducted a baseline 
assessment to determine geographic combatant command capacity 
and capability shortfalls in order to establish mitigation 
plans. Lastly, we have built a fusion center which provides a 
nexus for active planning, intelligence integration, and 
assessment of progress.
    Continued work still remains as we finalize and continue to 
revise an active campaign plan. This will be accomplished by 
expanding and refreshing efforts to assess and understand the 
evolving operating environment and regularly measure how our 
capabilities map to these assessments.
    The reality is that the counter-WMD mission is highly 
dynamic and constantly evolving, requiring unity of effort and 
constant vigilance. SOCOM looks forward to continued close work 
with OSD [Office of the Secretary of Defense] as well as the 
Joint Staff, DTRA, and the rest the counter-WMD community. The 
foundation of expertise they provide and the value they place 
on collaboration is integral to national success in countering 
WMD.
    Thank you again for the opportunity to address the 
committee this morning, and I look forward to your questions.
    [The prepared statement of General Osterman can be found in 
the Appendix on page 66.]
    Ms. Stefanik. Thank you to our witnesses for your opening 
statements.
    My first question will focus on innovation. As I referenced 
in my opening statement, we have seen rapid advancements in 
synthetic biology, gene editing, and biotechnology. How is the 
CWMD mission leveraging these advances in technology?
    I would like to start with Mr. Rapuano for the policy piece 
and then recognize Mr. Oxford at DTRA for your piece of how we 
are tackling this.
    Secretary Rapuano. Congresswoman, thank you very much for 
that question.
    As you are well aware, advanced development of 
biotechnology, genetic engineering, other capabilities such as 
artificial intelligence [AI] very much present double-edged 
swords when it comes to how we look at how threat actors and 
wannabe threat actors can leverage the knowledge and the 
ability of these capabilities to develop certain types of 
threats, particularly in the bio [biology] realm, in terms of 
when you look at the degree of dual-useality of the skills and 
technologies, but as well as the advanced information or 
artificial intelligence sequencing.
    So we do have some very important programs developed in 
those areas. And I know that my colleagues, in particular Mr. 
Oxford and Mr. Roberts, can speak to some of the details.
    Thank you.
    Ms. Stefanik. Mr. Oxford.
    Mr. Oxford. Thank you.
    I think it is really important to understand what Mr. 
Rapuano said; there are good and bad for all these technologies 
that we talk about: synthetic bio, additive manufacturing, 
drone technology, as well as AI that I believe we are being 
outpaced in. We have strong indications from the Secretary on 
down to really up our game in machine learning, as well as AI.
    We are working closely, especially with the guidance we get 
from Mr. Roberts' office, on syn bio. We have been part of a 
community looking at, again, the pros and cons of that 
technology. There are very positive things that can come out of 
that. At the same time, there are nefarious ways that we need 
to address that.
    The way I assess this right now is there is a lot of 
generalized fear and uncertainty in terms of where the good and 
the bad are. And we need to get, in my mind, to the top 10 
things we really think are the nefarious use of syn bio and 
start to tackle that.
    Ms. Stefanik. Let me ask you, given the importance of S&T 
[science and technology] efforts, do you think our budget is 
adequate for S&T?
    Mr. Rapuano.
    Secretary Rapuano. The most important element of the budget 
is predictability for us. And the one thing that I would ask is 
just ensuring that we get our 2019 budget, and, therefore, we 
can plan and operate based on a known set of resources, which 
we will then prioritize.
    So, obviously, in the recent budget, the Department has 
more resources than we have had in quite some time, and I am 
confident that we will be able to focus them on the priorities 
as we have just laid out.
    Ms. Stefanik. Shifting gears, Mr. Rapuano, this question is 
for you as well. The work of the Cooperative Threat Reduction 
program has evolved significantly since it began. Can you talk 
specifically about how this program can be used to address 
current and future threats?
    Secretary Rapuano. Absolutely. It has evolved considerably 
since its initial focus on former Soviet Union states and WMD 
capabilities that were legacy from the Soviet Union.
    As we look towards the future--and this is something that 
Mr. Oxford can go into in great detail--we are really looking 
at this, what we call, left of boom, in terms of prevention of 
CWMD. The focus of our CTR efforts is working with and 
developing new partnerships with nations to help inform and 
equip their efforts to counter WMD, as well as the 
proliferation of technologies and know-how that could lead to 
WMD capabilities.
    Ms. Stefanik. Thank you.
    And I wanted to give Mr. Roberts an opportunity to answer 
my previous question on the policy side.
    Secretary Roberts. Yes. Well, I concur with Mr. Rapuano. I 
think our budget, as we have submitted--I support the 
President's budget, and I think it is adequate.
    Ms. Stefanik. Okay.
    Mr. Oxford, did you want to comment on the Cooperative 
Threat Reduction in terms of the left of the boom, moving 
towards that direction as we modernize the program?
    Mr. Oxford. Absolutely. Thank you for that.
    On the S&T side, I think we are adequately resourced. You 
know, obviously, the CRs [continuing resolutions] hurt in that 
we disrupt momentum on programs, which have unintended 
consequences.
    On the CTR program, one of the first things I strove to do 
was to get with the combatant commanders and find out what they 
thought the best programs were that we could operate within 
their AORs [areas of responsibility] to buy down risk and then, 
in consultation with Mr. Rapuano's office, who issues the 
planning guidance for CTRs, to work that collaboratively to 
make sure we are actually getting the best bang for the buck.
    Ms. Stefanik. Thank you.
    I now recognize Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    Again, thanks to our witnesses for your testimony today.
    So the chemical weapons attack on Sergei Skripal provides a 
tragic test case of sorts for the 2014 strategy.
    How are policies developed with respect to the ``Respond to 
Crises'' strategic line of effort and the ``Cooperate With and 
Support Partners'' foundational activity dictated in the 
Department's response? And what specific activities is the 
Department engaging in to assist our allies? And how is the 
Department working with the interagency to reduce incentives to 
employ WMD by responding to Russian aggression?
    Secretary Rapuano. I will take the first shot at that, 
Congressman, and thank you for the question.
    We are, as a whole of government, working very closely with 
the U.K., as well as other partners and allies, developing the 
response to this event.
    As you may be tracking, the advanced forensics is currently 
being conducted by the U.K. That said, it appears highly 
likely, with the information at hand, that the Russians are 
responsible for the use of an advanced chemical agent against 
this individual. And, as you note, we need to develop an 
approach that imposes high cost on this type of behavior in 
order to deter future types of behavior either from the 
Russians or others.
    Secretary Roberts. If I could add to that, I was privileged 
to be at the Organization for the Prohibition of Chemical 
Weapons last week, in which several other nations--and this 
issue had come up, and it was uniformly condemnation of Russia 
for what happened. And both the EU [European Union] and NATO 
[North Atlantic Treaty Organization], as organizations, made 
statements to that effect.
    As far as the support that the U.S. provided, we made it 
very clear that we were willing to help them in any way that we 
could, as far as trying to track down and chemically analyze 
what was happening there.
    But there was a lot of support overseas for the efforts 
that the Brits were undertaking.
    Mr. Langevin. Thank you. Well, I wish the President were 
more vocal on this front, as well.
    But as I mentioned in my opening statement, the Department 
of Defense reorganization provides both opportunity and 
potential risk in coordinating policies, plans, and programs 
across the Department. Historically, CWMD has been treated as a 
specialized issue with somewhat segregated policies.
    Secretary Rapuano and Secretary Roberts, could you please 
describe how the Office of the Under Secretary for Acquisition 
and Sustainment, and the Under Secretary for Policy will 
continue coordination to establish policies and procedures for 
effectively developing programs that support current CWMD goals 
and force preparedness?
    Secretary Rapuano. Thank you, Congressman. I will take a 
first shot at the policy piece of the equation.
    As I note in my opening remarks, I am the lead for the 
development of strategy and policy on CWMD for the Secretary. 
And, as you note, there are many other critical functions 
within the Department, including AT&L, that are necessary and 
critical to supporting our CWMD efforts.
    The Secretary has made very clear that we have got to 
achieve a higher unity of effort in terms of how the threat has 
evolved and increased and the myriad capabilities and functions 
within the Department.
    So we have engaged from the get-go, really since I came 
into my position, working with Mr. Roberts, as well as Mr. 
Oxford, as well as with SOCOM as the coordinating authority, on 
how we are prioritizing and how we are focusing and how we are 
synthesizing our efforts to ensure that we are getting at the 
most significant threats in the most effective manner possible.
    Secretary Roberts. And I can certainly echo what Mr. 
Rapuano said. Combating-WMD policy and capability development, 
in my view, requires that our offices coordinate very closely, 
and I am happy to report to you today that I think our 
cooperation and coordination is outstanding.
    My office serves as the principal point of contact in the 
Office of the Under Secretary for Acquisition and Sustainment 
for the counter-WMD issues. And we develop, again, in 
coordination with Mr. Rapuano's office, policies, we provide 
advice, and we make recommendations on, among other things, the 
U.S. nuclear weapons; our CBRN medical and nonmedical defense; 
our safety and security for chemical and biological agents; 
safety, surety, security, and safe destruction of the current 
chemical weapons stockpile; and nuclear, chemical, and 
biological arms control activities.
    And so I think that relationship will grow stronger over 
time as we continue to look to other agencies within DOD that 
also have a role to play in this area.
    Thank you.
    Mr. Langevin. Thank you.
    I will have additional questions. I do not know if we are 
going to go to a second round. But thank you all for your 
testimony.
    And I will yield back.
    Ms. Stefanik. Ms. Cheney.
    Ms. Cheney. Thank you, Chairwoman Stefanik.
    And thank you to all of our witnesses for being here today.
    Lieutenant General Osterman, my question is for you--my 
first question. In your testimony, you talked about the need 
for exquisite access. And you began to sort of discuss, I 
think, the extent to which we are trying to get information in 
what are very difficult and challenging areas, some of the most 
difficult, I think, in which we operate, and the most opaque.
    But could you, to the extent that you can in open setting, 
talk about why you think what we are doing now is going to be 
more effective in that regard--in particular, in areas 
connected to nonproliferation?
    And I understand there are other responsibilities and other 
offices for that, but as you look at things like the North 
Korea threat--and I am not talking about whether or not we have 
to take military action there, but looking at nonproliferation 
issues there, how you feel we are in a better position today to 
be able to ensure that we actually know what is happening with 
those nuclear materials and others in other rogue states.
    General Osterman. Congresswoman, thank you for the 
question.
    I think probably fundamental to that is, in our efforts 
with counter-WMD, we are tied very closely to the National 
Defense Strategy. So the clear articulation in terms of the 
prioritization and how our National Defense Strategy is 
constructed has been of great utility for us in that regard, in 
terms of apportionment of assets, of--mostly, as you are 
referring to, the exquisite capabilities associated with the 
intelligence apparatus in order to have information that we 
need in order to conduct the missions, not only in a planning 
context, but also a tactical context.
    So I would say that I do believe that there has been a 
significant change with the emphasis in those hard problem sets 
and in the peer competitor range that allow us, then, to open 
up that planning beyond just the counter-VEO mission that we 
had typically focused on, you know, with our previous mission 
sets, and then open that aperture to allow us to look at some 
of these harder ones that really require a whole-of-government 
approach, and then allow us to continue with our interagency 
coordination to achieve that.
    Ms. Cheney. And you also talked about, in a pre-crisis 
scenario, the extent to which other agencies have 
responsibilities. Could you define, sort of, what would 
constitute ``crisis,'' how we would determine that you all are 
now carrying the responsibility in terms of these issues, how 
that responsibility has shifted from other agencies?
    General Osterman. Congresswoman, I guess I would define 
that as pre-crisis being short of conflict, active and open 
conflict, which is where, then, as Department of Defense--and I 
would really refer this more towards the policy folks. But it 
is where we would--DOD would then look to take on primacy, 
rather than a supporting effort.
    So, right now, our counter-WMD effort as a coordinating 
authority is really how best to orchestrate the Department of 
Defense activities in that pre-crisis phase to support the 
other interagency and intelligence community organizations that 
are associated with looking at the problem set and working with 
it, you know, from a deterrence perspective and 
counterproliferation perspective. The shift being, then, once 
it crosses a line, I think, into active and open conflict.
    Ms. Cheney. Thank you.
    And I will have additional questions in the closed setting, 
but I will yield back now.
    Ms. Stefanik. Mr. Larsen.
    Mr. Larsen. Thank you, Madam Chair.
    Mr. Oxford, hello again. I have a question about the 
turnaround time that DTRA has when you get a COCOM request and 
then you prototype and develop and produce.
    Are you using a separate process outside of acquisition or 
not? And, then, is there anything that you need to change or we 
need to consider changing within that process that you use to 
increase that turnaround--or, shorten that turnaround time?
    Mr. Oxford. So thank you for the question, Congressman. 
And, clearly, it depends on the complexity of the problem that 
we have been asked to resolve.
    In some cases--and we can talk about this a little bit more 
in the closed session--if we get a quick operational 
requirement, we have been known to turn back in 12 days. That 
is to provide limited numbers of capabilities. But, in many 
cases, we are looking at that 2- to 3-year time period.
    We have a lot of requirements from Under Secretary Lord 
right now to make sure we are looking at every contracting 
vehicle possible, as opposed to what had become kind of the 
traditional contracting vehicles people have used.
    So we are standing up, actually, an innovation office 
within the agency to look at these various levels of complexity 
of the problem and what the right, appropriate contracting 
vehicle is to get after that problem.
    So the turn cycle will be predicated on the complexity and 
the vehicle that we can use to do that. But I will tell you, as 
an agency, we became too traditional in some of our 
contracting, and we are opening the lens to this innovation 
board, bringing in new contracting officers to get at the 
problems in a more holistic way and with a lot more innovation.
    Mr. Larsen. Yeah. You are bringing in new contracting 
officers from other agencies within DOD, or do you mean you are 
hiring additional ones?
    Mr. Oxford. We are going to go out and hire new people. The 
Under Secretary has told us to make sure all of our contracting 
officers are trained in other transactional authorities [OTAs]. 
It is something that she is very akin to.
    We have people that are using OTAs at this point in time, 
but it is going to be a bigger part of our future as we look 
across the consortiums that have been established elsewhere by 
DIUx [Defense Innovation Unit Experimental] and others to make 
use of the OTAs they already have in place, because we can 
rapidly get things on to contract that way.
    Mr. Larsen. Yeah. And I note you said you could cover some 
other things in the closed session as well?
    Mr. Oxford. Yes.
    Mr. Larsen. Okay. Great.
    Mr. Roberts, I think this is for you, but it is about the 
Proliferation Security Initiative [PSI]. Would that be a 
question for you or Mr. Rapuano?
    Secretary Roberts. Mr. Rapuano, probably.
    Mr. Larsen. Okay. Great. Well, then you are off the hook.
    Is the PSI still helping to prevent WMD proliferation? And 
are there any changes that the administration is pursuing to it 
to improve upon any changes that you think are necessary?
    Secretary Rapuano. Absolutely, it is.
    And really the driving purpose of PSI is to shape the 
environment in terms of partners, allies, the international 
community with regard to the importance as well as the how-to's 
associated with enforcing U.N. [United Nations] Security 
Council sanctions with regard to proliferation.
    Obviously, very active in terms of that education process 
and that consensus-building process in supporting the maximum-
pressure campaign against North Korea.
    Mr. Larsen. Yeah. And are our partners in PSI still 
unwilling to utilize their own--are you hearing any reluctance 
from partners to utilize their own laws, their own rules in 
order to implement PSI?
    Secretary Rapuano. So the actual coordination of activities 
really falls into other categories beyond PSI. PSI is more 
about the engagement, the education, the consensus building. 
But in terms of specific actions, those are handled in a 
variety of different ways that we can speak to in more detail 
in the closed hearing.
    Mr. Larsen. Great. Thanks.
    And then I think this might be for Mr. Oxford as well, but 
whoever can answer it, I would appreciate it.
    So there appears to be some overlap in our capabilities of 
medical countermeasures between the DOD and HHS [Department of 
Health and Human Services], our manufacturing capabilities. Is 
it necessary that DOD have independent manufacturing 
capabilities for medical countermeasures, or is there some 
efficiencies that we can explore?
    Mr. Oxford. So, if I could, there is always interagency 
strife, as you may know, but we actually follow suit as a 
performer through Mr. Roberts' office. So they handle the 
prioritization of what we are tasked to do.
    Mr. Larsen. Uh-huh.
    Secretary Roberts. If I could comment on that, we have, in 
fact, established--you may be familiar with it--a medical 
countermeasures platform within what we have established as the 
Advanced Development and Manufacturing Center in Florida.
    And this is a facility that is contract-operated, contract-
owned, but we provided the equipment, that helps us in 
different circumstances rapidly develop vaccines for the 
warfighter, and also over agents that would not be normally 
profitable for Big Pharma, big pharmaceuticals, to run.
    So this is a new and innovative thing. It is up and 
running. And it provides us a capability that is not in the 
civilian community.
    Mr. Larsen. Okay. Thank you.
    Ms. Stefanik. Time has expired.
    We will now move to round two of questions and then break 
for the closed session.
    So my second question I want to direct first at SOCOM and 
then at DTRA.
    Given the increased threat of chemical and biological 
agents, what is our ability to operate in and through a 
contaminated environment? Do we have equipment or readiness 
concerns?
    I want to ask that question broadly, and then I want to ask 
that question specifically with the North Korea threat.
    General Osterman. Chairwoman, we do have the ability to 
operate in those environments. And we have continued and, as a 
matter of fact, are enhancing training throughout DOD in the 
sense of being able to operate in those environments given the 
emerging and more prevalent threats, I think, than what we have 
had, perhaps, in the past.
    We have always had that capability. And, for example, even 
in the Iraq-Syria mission sets, where we have had chemicals 
used and everything, we have been able to respond to those very 
adequately with the proper protection, proper forces in order 
to be able to work with it from a DOD perspective.
    Some of the specifics associated with North Korea, I prefer 
to wait until the closed session, if we could, and I will be 
prepared to answer then.
    Ms. Stefanik. Thank you.
    Mr. Oxford.
    Mr. Oxford. Thank you. And, again, more details in the 
closed session, if we could.
    But I will say that, after 17 years of the counterterrorism 
fight, we are finding a lot of things that we used to do with 
the big general purpose forces is under stress. And so, as we 
look at a North Korean or other engagements against those 
threats that are identified in the National Defense Strategy, 
we need to rebalance the force.
    And I think Secretary Mattis would say getting back to 
preparedness and then modernization would be his top two 
priorities.
    Ms. Stefanik. Thank you.
    Shifting gears, Mr. Roberts, your office oversees the 
Chemical Demilitarization Program. Can you update us on how 
this work is progressing? We understand there have been some 
contract issues.
    Secretary Roberts. Yes. Well, our biggest--first of all, we 
have, as you know, two facilities, one in Pueblo, Colorado, and 
the other at Bluegrass in Kentucky. And our biggest challenge 
is right now the--well, the Bluegrass facility is not up and 
running yet. It will not be until next year.
    And the Pueblo facility, there, we have had some problems 
with the throughput, if you will, of the neutralization and 
hydrolysate treatment process. As a result, we haven't actually 
been dismantling and destroying the munitions since last 
August. We are hoping that facility would be up and running by 
July.
    And, as it stands right now, given all the other things 
that we are doing, working very closely with the contractor, we 
still believe we will be able to meet the December 31, 2023, 
deadline.
    Ms. Stefanik. Thank you.
    And my last question is for Mr. Oxford, which has to do 
with rapid development and fielding. What has DTRA learned from 
JIDO's [Joint Improvised-Threat Defeat Organization's] rapid 
delivery--capability delivery?
    Mr. Oxford. So I think the biggest issue is to really 
understand the operational requirements. And we created one of 
the strategic imperatives within the agency when I took over; 
we call it ``attack the network.'' And it gets to one of the 
questions that Congresswoman Cheney asked, as well. Really 
illuminating the entire network and identifying through ops 
intel [operations intelligence] analysis, how do you get to the 
solution space, allows us to more rapidly turn within some of 
the questions that Mr. Larsen was also asking, to take the 
ability to tailor the response, identify in many cases 
commercial capabilities as opposed to developing them within 
the Department, which has been kind of the traditional 
approach. But then having the adequate test and evaluation 
process that is tailored, again, to the complexity of the 
problem as opposed to what the DOD 5000 series would suggest is 
a T&E [testing and evaluation] problem, is to actually tailor 
it to the rapid response, again, based on the complexity and 
what ops intel tells us the capability needs to be.
    Ms. Stefanik. Thank you.
    Mr. Langevin, you are recognized for a second round of 
questions.
    Mr. Langevin. Thank you, Madam Chair.
    Again, thanks to all of our witnesses.
    To follow up and continue in this line of questioning, 
Director Oxford, how is DTRA coordinating S&T and R&D [research 
and development] with the Under Secretary for Research and 
Engineering community, which includes DARPA [Defense Advanced 
Research Projects Agency] and the labs.
    Mr. Oxford. A couple things there, especially on the latter 
part of that, Mr. Langevin.
    I have a working agreement now with Steve Walker, the 
Director of DARPA. He sent his entire senior staff along with 
himself to the agency, and we spent half a day with his entire 
organization. We are now a transition partner for many of the 
capabilities that he gets to a certain phase and we take them 
on and get them matured and into the field. And we actually 
showed the Under Secretary some of those yesterday.
    Regarding the national labs, I hosted 10 national labs at 
the agency recently and talked about a path forward, where we 
will now quarterly meet with the labs, identify capabilities 
that match against our priorities, and then figure out, working 
with the DOE [Department of Energy] leadership and the NNSA 
[National Nuclear Security Administration] leadership, how to 
gain access to those laboratories in a way that meets the 
solution space.
    My head of research and development is actually a member of 
the executive committee under Mr. Griffin over in R&E [Research 
and Engineering], so he meets with his seniors on a quarterly 
basis as well. So, even though Mr. Griffin has only been in 
office for a short while, we have a direct connectivity into 
his chain.
    Mr. Langevin. Thank you.
    So I believe that a whole-of-government effort is required 
to support CWMD strategy and policy. Can you please describe, 
all of you, your work with other agencies to achieve your 
strategic CWMD objectives? And how has underresourcing and 
marginalizing of other Federal agencies, such as the Department 
of State, affected the CWMD effort?
    Secretary Rapuano. To your point, Congressman, it truly is 
a whole-of-government effort. When you look at, particularly in 
the acquisition, the capability development on the part of 
adversaries or potential adversaries, many of those 
interdictions, many of those interventions and efforts to get 
at the pathways, we call it, in terms of the routes for 
individuals who are nonstate actors or state actors to develop 
capability, are getting at the diplomatic piece of it, the arms 
control compliance piece of it, the economic sanctions.
    We have the Treasury, Department of Commerce, DHS 
[Department of Homeland Security], in terms of all of the 
export control issues, involved. We meet on a constant basis 
with them routinely, weekly, in terms of at the White House and 
the PCC [Policy Coordination Committees], at other interagency 
constructs that we can speak about in more detail in closed 
session. But it truly is a very well-integrated effort in terms 
of all the different players----
    Mr. Langevin. Yeah, but I do not want to hear just the 
good-news story. I also want to see how has the underresourcing 
and the marginalizing of other Federal agencies, such as 
Department of State, affected the CWMD effort.
    Secretary Rapuano. Congressman, I cannot speak to the 
budget circumstances of other agencies. I would simply note 
that the cooperation is ongoing and very strong.
    Mr. Oxford. Mr. Langevin, if I could address that, General 
Osterman and I had a chance to meet in two consecutive weeks, 
first with CENTCOM [U.S. Central Command] in an interagency 
meeting to talk about specific threats. And, again, we can talk 
about that in the closed session.
    The challenge for the Department, as General Osterman said, 
is illuminating the networks so we can get the interagency 
involved in getting after the threats within their authorities, 
as opposed to it becoming a DOD-only problem.
    We met a week later, under General Thomas' leadership, at a 
global synchronization conference, where, once again, we 
reemphasized the need for the interagency to be involved left 
of the problem.
    And what the burden is on many of those other interagency 
partners is lack of analytical capabilities and lack of 
information that DOD often has, but we have not always shared. 
So getting to a better information-sharing further enables the 
small analytical capabilities they have in some of the agencies 
that Mr. Rapuano mentioned.
    Mr. Langevin. Very good. Thank you.
    So, as Lieutenant General Osterman noted in his testimony, 
there is a lack of clear tasks for CWMD. How are each of you 
working to bring clarity to CWMD roles and responsibilities, 
tasks, as well as policies and programs, so that CWMD efforts 
are well understood across the DOD and combatant commands?
    Secretary Rapuano. I will take a first knock at that, 
Congressman.
    The first thing we are focused on doing is prioritization. 
All WMD is not equal, and all WMD is not equally interdictable, 
in the sense of, when we look at the different pathways and 
means of acquisition of different actors, we need to be, and 
are, prioritizing who the actors are that represent the biggest 
risk and threat, and, therefore, what pathways and activities 
we are going to focus on, and then identifying those agencies 
with the information, authorities, and capabilities necessary 
to work either independently or in tandem with others to most 
effectively get at that acquisition and deny it.
    Secretary Roberts. And if I could add, we continue to work 
with the services and the Joint Requirements Office to align--
assess, align resources to address any of the capability gaps. 
Joint Staff then identifies future operational capability 
needs, with input from the services. And we arrive at what 
would be called a Joint Priority List, which identifies and 
prioritizes these capabilities.
    And then we continue to be in close collaboration with the 
end users. And I think that process overarching allows us to, 
you know, effectively identify the priorities that need to be 
addressed and in order of priority.
    Mr. Langevin. Thank you.
    General Osterman. Sir, I can jump on that as well. Just two 
very quick things.
    One is developing a functional campaign plan, which SOCOM 
has done, which harmonizes and coordinates all those 
activities, also identifies gaps through the assessment 
process.
    And then the other one is the creation of our fusion 
center, which allows for the integration of planning as well as 
resources, threat analysis, and even operational activity.
    Mr. Langevin. Thank you all. I know my time has expired, so 
I will yield back, but thank you all.
    Ms. Stefanik. Thank you.
    This concludes our open session. We will now transition for 
the closed portion of this hearing.
    [Whereupon, at 12:12 p.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================

                            A P P E N D I X

                             March 22, 2018

=======================================================================

      
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2018

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 22, 2018

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. STEFANIK

    Ms. Stefanik. Given the current world situation in locations such 
as North Korea, Ukraine and the Middle East, all members of the Armed 
Services have an increased potential to be exposed to radiation. The 
possible scenarios are not limited to current operational theaters but 
could occur anywhere in the world, including within the United States 
via a ``dirty'' bomb, putting our soldiers in particular danger. The 
armed services must ensure all of their service members are protected 
from these radiological threats. The Army's FY2019 budget request 
includes a proposal to develop and field the next-generation Joint 
Personal Dosimeter-Individual (JPD-I). An individual dosimeter that 
includes active and passive technology, such as immediate visual alert, 
measurement of radiation dose, and inclusion of a comprehensive, legal 
record and definitive proof of radiation exposure over a soldier's 
entire career is highly beneficial. Provided this growing global 
radiation threat and the Department's keen interest in this combined 
alert/dose of record capability, please provide the committee 
information on the planned way ahead to develop and field the Joint 
Personal Dosimeter-Individual (JPD-I) in FY2019. Specifically provide 
details explaining how DOD, the Army in particular, plans to conduct a 
rigorous, fair and open competition for this new system to ensure the 
very best dosimeter is developed and selected for deployment to 
soldiers worldwide in order to increase unit and individual 
survivability. Include information on the capability requirements for 
the Joint Personal Dosimeter-Individual; what Services will join the 
Army in this procurement program; estimated number of industrial 
competitors expected to compete for contract award; acquisition 
strategy and timeline; Request for Proposal (RFP) timeline; procurement 
and fielding schedule; and funding profile over the next 5 years.
    Mr. Oxford. Madam Chairwoman, thank you for your question. DTRA has 
had no involvement with the JPD-I program and I respectfully request 
any questions regarding this program be directed to the Army.
    Ms. Stefanik. Given the current world situation in locations such 
as North Korea, Ukraine and the Middle East, all members of the Armed 
Services have an increased potential to be exposed to radiation. The 
possible scenarios are not limited to current operational theaters but 
could occur anywhere in the world, including within the United States 
via a ``dirty'' bomb, putting our soldiers in particular danger. The 
armed services must ensure all of their service members are protected 
from these radiological threats. The Army's FY2019 budget request 
includes a proposal to develop and field the next-generation Joint 
Personal Dosimeter-Individual (JPD-I). An individual dosimeter that 
includes active and passive technology, such as immediate visual alert, 
measurement of radiation dose, and inclusion of a comprehensive, legal 
record and definitive proof of radiation exposure over a soldier's 
entire career is highly beneficial. Provided this growing global 
radiation threat and the Department's keen interest in this combined 
alert/dose of record capability, please provide the committee 
information on the planned way ahead to develop and field the Joint 
Personal Dosimeter-Individual (JPD-I) in FY2019. Specifically provide 
details explaining how DOD, the Army in particular, plans to conduct a 
rigorous, fair and open competition for this new system to ensure the 
very best dosimeter is developed and selected for deployment to 
soldiers worldwide in order to increase unit and individual 
survivability. Include information on the capability requirements for 
the Joint Personal Dosimeter-Individual; what Services will join the 
Army in this procurement program; estimated number of industrial 
competitors expected to compete for contract award; acquisition 
strategy and timeline; Request for Proposal (RFP) timeline; procurement 
and fielding schedule; and funding profile over the next 5 years.
    General Osterman. USSOCOM defers to the Department of the Army, the 
Joint Staff Force Structure, Resources, and Assessment Directorate J8 
and the Joint Program Executive Office for Chemical and Biological 
Defense to provide the appropriate response to this question.

                                  [all]
</pre></body></html>
